                            Health and Human Services
The Department of



                              And .
                    The Department of Justice
Health Care Fraud and Abuse Control Program
                    Annual Report For FY 1997




                           January i 998
                                                         FOREWORD

Fraud in the United States' health care system is a serious problem that has an impact on all health
care payers, and indeed affects every person in this country. Dollars alone do not fully measure
the impact of        health care fraud on our Nation. Fraudulent biling practices may also disguise
inadequate or improper treatment for patients.

The Department of    Health and Human Services and the Department of Justice, along with other
federal, state and local agencies, are commtted to aggressive efforts to enforce the law and
prevent health care fraud. On-going efforts to attack fraud and abuse in federal health programs
were consolidated and strengthened under the Health Insurance Portability and Accountability Act
of 1996 (HIAA). HIAA provided powerfl new criminal and civil enforcement tools as well as
expanded resources for the fight against health care fraud.

This first annual report of the Health Care Fraud and Abuse Control Program under HI AA
shows that we are making dramatic new headway. During 1997, the first full year of anti-fraud
and abuse funding under HIAA, we have recorded the most successful year ever in the nation's
efforts to detect and punish fraud and abuse against federal health programs, in particular the
Medicare and Medicaid programs. Not only are collections and enforcement actions at an all-time
high, but much greater amounts are being returned to the Medicare Trust Fund. During 1997:

. $1.087 bilion was collected in criminal fines, civil          judgments and settlements, and
            administrative impositions.
. $968 millon was returned to the Medicare Trust Fund, and $3 1 millon was recovered as
            the federal share of Medicaid restitution.
· More than 2,700 individuals and entities were excluded from federally sponsored health
       care programs - a 93 percent increase over 1996.
. Federal prosecutors opened 4,010 civil health care matters, an increase of 61 percent over
            1996.

The success of  this Program comes from the hard work done on a day-to-day basis by dedicated
investigators, auditors, prosecutors, and support personnel across this Nation. As we highlight
their contributions in this report, we must also aim at bringing about even greater participation by
patients and honest health care providers in identifying and reporting fraudulent and abusive
practices. Ultimately our success against fraud and abuse in health care rests on an attitude of
"zero-tolerance" for fraud throughout our health care system.
                           TABLE OF CONTENTS


                                                                     Page

Executive Summary                                                      1



Introduction                                                           3


Monetary Results                                                       7

Expenditures                                                           9
      Deparment of Health and Human Services                          13
             Offce of Inspector General                               13
               Health Care Financing Administration                   16
               Health Resources and Servces Administration            18
               Offce of the General Counsel                           19
               Administration on Aging                                19
       Department of Justice                                          21
             United States Attorneys                                  21
             Civil Division                                           24
             Federal Bureau of Investigation                          25
             Criminal Division                                        26
             Justice Management Division                              26
      . Funding for Other Parners in Health Care Enforcement
               And Oversight                                          27

Appendix: Federal Bureau of Investigation - Mandatory Funding         29

Glossary of Terms                                                     31




                                         GENERA NOTE
                                 All years are fiscal years unless
                                   otherwse noted in the text.
                                          EXECUTIVE SUMMARY

Many forms of health care fraud and abuse pose a threat to the health and safety of countless
Americans, including many of the most vulnerable members of our society. To respond to this
serious problem, Congress passed, and the President signed into law, the Health Insurance
Portabilty and Accountabilty Act of 1996 ("HI AA"). HI AA provided powerfl new criminal
and civil enforcement tools and $ 1 04 millon in resources in 1997 dedicated to the fight against
health care fraud. (Separately, the Federal Bureau ofInvestigation (FBI) received $47 millon
which is discussed in the Appendix to this report.) In addition, HI AA required the Attorney
General and the Secretary of                  the Department of              Health and Human Services (HS), acting
through the Inspector General, to establish a coordinated national Health Care Fraud and Abuse
Control Program ("Program"). The Program provides a coordinated national framework for
federal, state, and local law enforcement agencies, the private sector, and the public to fight health
care fraud.

The first-year results of             the Program demonstrate its effectiveness in meeting the goals established
by Congress in HI AA.

Civil.and Criminal Enforcement Actions

Civil and criminal health care fraud enforcement actions increased significantly in 1997. Federal
prosecutors filed 282 criminal indictments in health care fraud cases in 1997 -- a 15 percent
increase over the previous year. Similarly, the number of defendants convicted for health care
fraud-related crimes rose from 307 in 1996 to 363 in 1997 -- an 18 percent increase. The number
of civil health care matters also increased in 1997, with federal prosecutors opening 4,010 civil
matters -- an increase of 6 1 percent over 1996.

Monetary Results

In 1997, the Federal Government won or negotiated more than $1.2 bilion in                             judgments,
settlements, and administrative impositions in health care fraud cases and proceedings. As a
result of these activities, as well as prior year judgments, settlements, and administrative
impositions, the Federal Governent in 1997 collected $ 1 .087 bilion. It should be noted that
some of the judgments, settlements, and administrative impositions in 1997 wil result in
collections in future years, just as some of the collections in 1997 are attributable to actions from
prior years.


A significant portion of              the $1.087 bilion collected was the result of         nationwide investigations
into fraudulent biling practices of                    hospitals     and independent laboratories. More than 89 percent
($968 millon) of
                            the funds collected and disbursed in 1997 were returned to the Medicare Trust
Fund. An additional $31 millon was recovered as the Federal share of                           Medicaid restitution.


                                                                             i
In addition, 326 Medicare coverage reviews were made in 19 states and overpayments in the
amount of $87.6 millon were identified. HCF A is in the process of collecting these
overpayments.

Exclusion from Federally Sponsored Programs

HI AA provided powerfl new tools to prohibit companies or individuals convicted of certain
health care offenses from participating in Medicare, Medicaid or other federally sponsored health
care programs. In 1997, HHS excluded more than 2,700 individuals and entities from federally
sponsored health care programs -- a 93 percent increase over 1996.

Preventing Health Care Fraud

Preventing   health care fraud and abuse is a central component of
                                                                         the Program. The Program's
prevention efforts include the promulgation of formal advisory opinions to industry on proposed
business practices, model compliance plans, special fraud alerts, and beneficiary and provider
education and outreach.




                                                                     2
                                          INTRODUCTION

                           ANNUAL REPORT OF
              . THE ATTORNEY GENERAL AND THE SECRETARY
                 DETAILING EXPENDITURES AND REVENUES
       UNDER THE HEALTH CARE FRAUD AND ABUSE CONTROL PROGRAM
                          FOR FISCAL YEAR 1997

                                                  As Required by
                               Section 1817 (k)(5) of the Social Security Act

The Social Security Act Section 1128C(a), as established by the Health Insurance Portability and
Accountability Act of 1996 (p.L. 104- 1 9 1, HI AA or the Act), created the Health Care Fraud
and Abuse Control Program, a far-reaching program to combat fraud and abuse in health care,
including both public and private health plans.

The Act requires the Attorney General and the Secretary to submit a joint annual report to the
Congress :Which identifies:

(A) the amounts appropriated to the Federal Hospital Insurance (Il) Trust Fund for the
         previous fiscal year under various categories and the source of such amounts; and

(B) the amounts appropriated from the Trust Fund for such year for use by the Attorney
         General and the Secretary .and the justification for the expenditure of such amounts.

This 1997 Anual Report thus discusses those funds which HHS and DOJ are required to deposit
in the II Trust Fund, and those funds which HI AA appropriated from the II Trust Fund.

The Act requires that an amount equaling recoveries from health care investigations -- including
criminal fines, fodeitures, and civil and administrative penalties and judgments, but excluding
restitution, compensation and relators' awards -- shall be deposited in the II Trust Fund. All
funds deposited in the Trust Fund as a result of the Act are available for the operations of the
Trust Fund.

As stated above, the Act appropriated monies from the II Trust Fund to a newly created
expenditure account, called the Health Care Fraud and Abuse Control Account (the Account), in
amounts that the Secretary and Attorney General jointly certify are necessary to finance anti-fraud
activities. The maximum amounts available for expenditure are specified in the Act. Certain of
these sums are to be available only for activities of                            the Offce ofInspector General (OIG) ofHHS,
with respect        to Medicare and Medicaid programs. To the extent that the remaining funds are not
spent directly by HHS and the Department of Justice (DOJ) on establishment and operation of                              the
Program, funds may be made available to other federal, state and local health care enforcement

                                                             3
                                                                                                                the Program,
organizations for purposes that further the Program. In the first year of operation of

1997, the Secretary and the Attorney General certified $ 1 04 millon for appropriation to the
Account. A detailed breakdown of the allocation of these funds is set forth later in this report.
These resources supplement the direct appropriations ofHHS and DOJ that are devoted to health
care.fraud enforcement. (Separately, the FBI received $47 millon from HIAA which is
discussed in the Appendix.)

Under the joint direction of                  the AttorneyGeneral and the Secretary of
                                                                                                  Health and Human
Services (HS) acting through the Department's Inspector General, the
                                                                                                   Program's goals are:


(1) to coordinate federal, state and local
                                                                        law enforcement efforts relating to health care fraud
            and abuse;


(2) to conduct investigations, audits, and evaluations relating to the delivery of and payment
            for health care in the United States;

 (3) to facilitate enforcement of all applicable remedies for such fraud;


 (4) to provide                guidance to the health care industry regarding fraudulent practices; and

 (5) to establish a national data ban to receive and report final adverse actions against health
         care providers.


 HHS and DOJ Activities in 1997

 HI AA signed into law in August 1996, contained an aggressive timetable for implementation of
 the fraud and abuse control provisions of Title II. Funding under the Act began with 1997, with
 the Program and implementing guidelines to be in place no later than January 1, 1997. The
 overall Program required rapid initiation of a host of actions, including issuance of regulations
 (such as those governng a new process for issuing advisory opinions to the public on fraudulent
 health care transactions), initiation of negotiated rulema.king on anti-kickback penalties in the
 context of risk sharng arrangements, and initiation of a beneficiary incentive and outreach
 program. To make the most effective use of    the tools and resources provided under HIAA
 HHS and DOJ, along with other federal, state and loèal agencies are joined in a coordinated
 national health care fraud enforcement and prevention program.

  This colla,borative effort resulted in numerous accomplishments, including the following
  achievements:

  . In November 1996, HHS and DOJ signed a Memorandum of
                                                                                                  Understanding that set out
              procedures for the establishment of the Account, allocation of funds under the Program,
              expenditures of Account funds and accounting for such funds, tracking of recoveries
              under the Program, and overall evaluation of the Program.


                                                                                 4
. In January 1997, the Attorney General and the Secretary issued guidelines that provide a
           coordinated framework for enforcement and prevention efforts. The guidelines
           incorporated input from the law enforcement agencies charged with combating health care
           fraud.

. Civil and criminal health care fraud enforcement actions increased significantly in 1997.
           Federal prosecutors fied 282 criminal indictments in health care fraud cases in 1997 -- a
           15 percent increase over the previous year. Similarly, the number of defendants convicted
            for health care fraud-related crimes rose from 307 in 1996 to 363 in 1997 -- an 18 percent
            increase. Thè number of civil health care matters also increased in 1997, with federal
            prosecutors opening 4,010 i:ivil matters -- an increase of 61 percent over 1996.

. In 1997, the Federal Governent won or negotiated more than $1.2 bilion in                   judgments,
            settlements, and administrative impositions in health care fraud cases and proceedings.
            As a result of these activities, as well as prior year judgments, settlements, and
            administrative impositions, the Federal Governent in 1997 collected $ 1 .087 billon. It
            should be noted that some of the judgments, settlements, and administrative impositions in
            1997 will result in collections in future years, just as some of the collections in 1997 are
            attributable to action from prior years. A portion of    the judgments, settlements, and
            administrative impositions reflected here are the culmination of investigations and
            prosecutions begun before the effective date of the Program. Thus, resolution of these
            enforcement activities is not attributable solely to funding under the new Program: At the
            same time, many enforcement actions undertaken in 1997 wil not result in collections until
            future years.


. 326 Medicare coverage reviews were made in 19 states and overpayments in the amount
            of$87.6 millon were identified. HCFA is in the process of             collecting these overpayments.

· More than 2,700 individuals and entities were excluded from participation in Medicare,
            Medicaid and other Federal and state health care programs, due to their inappropriate
            activities -- a 93 percent increase over 1996.

. Many diverse initiatives were aimed at prevention of health care fraud and abuse, among
            them: (1) procedures for requesting and issuing formal advisory opinions were developed,
            and the first four opinions were issued; (2) HHS canvassed the health care industry and
            received suggestions on general issues in which industry guidance, in the form of safe
            harbors or special fraud alerts, was needed; (3) HHS and DOJ convened negotiated
            rulemakng on the issue of        kickbacks in shared risk arrangements; (4) a model compliance
            plan for the clinical     laboratory industry was issued; (5) HCF A, the Administration on
            Aging and the HHS/OIG joined with the private sector to survey beneficiary populations
            to assist in devising an effective outreach to educate the elderly to recognize and report
            fraud; (6) a total of 84 corporate integrity agreements were entered with parties in
            connection with fraud settlements.


                                                                              5
. Of       the funds made available for 1997, $1.55 milion              was given to Federal, state and local
        agencies (other than HHS and DOJ) that are              currently involved in health care fraud and
        abuse activities. In future months, these groups wil be monitored for effectiveness in
        furthering the goals of             the Program. These grants are described on page 29.

The remainder of this report provides a more detailed look at these and other accomplishments
under the Program, and statistical data summarizing disbursement of collections and expenditures
during the first year of its operation.




                                                             6
                                              MONETARY RESULTS

As required by the Act, HHS and DOJ must detail in this Anual Report the amounts deposited
and appropriated to the II Trust Fund, and the source of such deposits. In 1997, the combined
anti-fraud      actions of        the federal and state governents and numerous private citizens produced
remarkable outcomes with respect to collections as the result of successful investigations,
negotiations and lawsuits. The Federal Governent collected $1.087 bilion in connection with
health care fraud cases and matters in 19971. These funds were deposited with the Department of
the Treasury and HCF A, transferred to other federal agencies administering health care programs,
or paid to private persons. The following chart provides a breakdown of
                                                                                                                  the transfers/deposits:



                                          Total 'fransfer/Deposits by Recipient 1997
                  Department of the Treasury
                    HI AA Deposits to the il Trust Fund
                              Gifs and Bequests                                                                             $6,750
                              Amount Equal to Crial Fines'"                                                             46,162,414
                              Civil Monetar Penalties                                                                      732,577
                              Amount Equalto Asset Fodeitue **                                                                       0
                              Amount Equal to Penalties and Multiple Damages                                            88,828,469
                   Health Care Financing Administration
                    OIG Audit Disallowances - Recovered                                                                302,288,607
                    Restitution/Compensatory Damages                                                                   560.576,678
                                                                                                                       998,595,495

                   Restitution/Compensatory Damages to Other Federal Agencies
                    Deparent of Veterans Afairs                                                                         22,131,850
                    National Institutes of        Health                                                                13,513,956
                     Offce of     Personnel Management                                                                   6,465,074
                    Deparent of         Defense                                                                          6,334,917
                    Railroad Retiement Board                                                                             4,810,169
                     Other                                                                                               2,276,621
                                                                                                                        55,532,587

                   Relators' Payments ***                                                                                33,169,932

                         TOTAL****                                                                                 $1,087,298,014
 *Report to the Deparent of       the Treasury were oversated by $5,000,000 In 1997. A correction will be reflected In the 1998 HCFAC Anual
 Report.
 **11s includes only fodeitures under 18 United States Code (U.S.     C.) 1347, a new federal health care fraud offense that became effective on August
 21, 1996. Not included are fodeitures obtained in numerous health care fraud cases prosecuted under federal mail and wire fraud and other offenses.
 ***These are fuds awarded to private perons who fie suits on behalf of the Federal Goverent under the il ta provisions of     the False Claim
 Act 31 U.S.C. sec 3730(b).
 ****Funds are also collected on behalf of stte Medicaid program and private insurance companes; these funds are not represented here.




             lIn 1997, DOJ collected an additional $136,800,000 in health care fraud cases and matters that was not disbursed to the
 affected agencies and/or the Account in 1997 due to: (i) on-going litigation regarding relator shares in gi tam cases that wil affect the
 amount retained by the Federal Government; (ii) receipt offunds late in the year that were then processed in 1998; and (iii) delays in
 recoding collections originally directed into miscellaneous Treasury receipts. Ofthis total, $79,767,000 is stil in suspense pending
 outcome oflitigation; approximately $40,893,000 has been disbursed in 1998 to the appropriate agencies and the Account; and
 $16,140,000 is expected to be so disbursed later in 1998.

                                                                             7
The above transfers include certain collections, or amounts equal to certain collections, required
by HI AA to be deposited directly into the II Trust Fund. These amounts include:

(1) Gifts and bequests made unconditionally to the Trust Fund, for the benefit of the Account
           or any activity financed through the Account.

(2) Criminal fines recovered in cases involving a federal health care offense, including
           collections under 1347 oftitle 18, U.S.C. (relating to health care fraud);

(3) Civil monetary penalties in cases involving a federal health care offense;


(4) Amounts resulting from the forfeiture of property by reason of a federal health care
      offense, including collections under section 982(a)(6) oftitle 18, U.S.C;
                                                                                               the
(5) Penalties and damages obtained and otherwse creditable to miscellaneous receipts of

          . general fund ofthe Treasury obtained under sections 3729 through 3733 Title 31, United
            States Code (known as the False Claims Act), in cases involving claims related to the
            provision of health care items and servces (other than funds awarded to a relator, for
            restitution or otherwse authorized by law).

HI AA requires an independent review of these deposits by the General Accounting Offce
(GAO). The GAO report is to be submitted to Congress by June 1, 1998.




                                                                               8
                                                     EXPENDITURES

In the first year of operation, the Secretary and the Attorney General certified $ 1 04 millon as
necessary for the Program. The following chart gives the allocation by recipient:


                          1997 ALLOCATION OF HCFAC APPROPRITION
                                                     (Dollars in thousands)
                                          Organization                                         Allocation

          Department of   Health and Human Services
             Offce of Inspector. General                                                             $70,000
             Health Care Financing Administration                                                      5,346
           Health Resources and. Services Administration                                               2,000
           Offce of the General Counsel                                                                1,800
           Administration on Aging                                                                     1,100
          Total                                                                                      $80,246

          Department of Justice
            United States Attorneys                                                                   $8,548
            Civil Division                                                                             9,656
            Federal Bureau ofInvestigation                                                             3,625
            Criminal Division                                                                            329
            Justice Management Division                                                                   42
          Total                                                                                      $22,200

          Other Agencies                                                                               $1,554

          Total                                                                                     $104,000

These resources supplement the direct appropriations ofHHS and DOJ that are devoted to health
care fraud enforcement.

Overview of Accomplishments

The Act centralizes coordination of all public and private health care fraud enforcement activities
in a single program, led by HHS and DOJ, working in conjunction with: State Medicaid Fraud
Control Units (MCUs); Department of      Defense (DOD), Defense Criminal Investigative Service
(DCIS)(Civilan Health and Medical Program of
                                                                               the Uniformed Services - CHAUS, also
called TRICAR); the United States Pôstal( Servce; the Internal Revenue Service; the Drug
Enforcement Administration; the Offce of Personnel Management (OPM), Offce of Inspector
General (Federal Employees Health Benefits Plan); Department of  Veteran Afairs (VA), Offce
ofInspector General; the Food and Drug Administration; and the Department of                                Labor (DOL).


                                                                               9
The Congress and the President recognized that close coordination among federal, state and local
law enforcement agencies, as well as private insurers and health plans, is crucial to successfully
detect, prosecute and prevent fraud in the vast health care industry.

Recent experience confrms the benefits of enhanced coordination. A two-year demonstration
project, ()peration Restore Trust (ORT), ilustrated that extensive collaboration among law
enforcement agencies would result in greater effectiveness and effciency in preventing and
detecting fraud and abuse in certain targeted services reimbursed by Medicare and Medicaid.
Such coordination among governent, industry, and the beneficiar population thus forms the.
essential foundation of the HCF AC Program.

HI AA' s landmark reforms bring critically needed resources and stronger enforcement tools to
the battle against health care fraud and abuse. As envisioned by HI AA we have continued the
successful partnerships forged earlier, expanding their membership and scope as necessary to
address fraud and abuse throughout the health care industry. Nationally, the Executive Level
                                                                                  General
Health Care Fraud Policy Group (composed ofHHS/OIG, HCFA, HHS Offce of

Counsel (OGC), FBI, and DOJ civil and criminal prosecutors), the National Health Care Fraud
Working Group (composed ofHHS, DOJ, DOD, DOL, VA, Department ofthe Treasury, OPM,
United States Railroad Retirement Board, United States Postal Service, and the National   and
 Association of Attorneys General) and other bodies share information on both specific cases

 overall trends. This national coordination is increasingly vital to curbing national schemes that cut
 across state lines and enforcement jurisdictions.

 These national groups also sponsor training to enforcement personnel on detecting and
 prosecuting complex health care schemes. For example, the HHS/OIG and the FBI are together
 sponsoring four interagency training sessions regarding health care fraud and abuse. Building on
 the partnerships forged by the ORT demonstration project, the training is designed to further
 enhance agencies' understanding of the complexities of the federal health care programs. The
 focus areas of the training are: managed care (held in September 1997); durable medical
 equipment (held in December 1997); ambulance payments (to be held in 1998); and home health
  care (to be held in 1998). llS/OlG also held an advanced training seminar for agents who have
 been with the HHS/OIG for two years or less. Held in September 1997, the advanced seminar
 focused on emerging issues. The next seminar is planned for April 1998. In addition, HCFA has
  provided training sessions on basic Medicare and Medicaid program issues. Developed by HCF A
  in collaboration with the HHS/OIG and FBI, this training enabled new agents and investigators to
  understand Medicare and Medjcaid program policies and operation, and was conducted on a
  regional basis during 1997 and the first quarter of 1998. This training wil also be provided to
  DOJ attorneys in 1998.

  At the local        level, more and more health care fraud working groups and task forces are getting
  underway. These working groups encourage communication and coordination among law
   enforcement offcials in sharing information on specific cases, and selecting appropriate remedies.
   Local working groups have been encouraged to establish a liaison with licensing and
                                                                                10
regulatory bodies, state offcials, and private insurers. Task forces have also reached out to
consumer and provider groups, so as to work together to identify fraudulent health care schemes,
and to encourage referral of such information to the appropriate offcials.

During this year, the Federal Government won or negotiated more than $1.2 billon in                                  judgments,
settlements, and administrative impositions in health care fraud cases and proceedings. As a result
ofthese activities, as well as prior year judgments, settlements, and administrative impositions, the
Federal Government in 1997 collected $1.087 bilion in cases resulting from health care fraud and
abuse, ofwÏich $968 millon was returned to the Medicare Trust Fund and $31 millon was
recovered as the federal share of    Medicaid restitution. These unprecedented figures are
attributable, in large part, to the ongoing and expanded collaboration among health care oversight
and enforcement offcials at all                   levels of government and the private sector. It should be noted
that some of  the judgments, settlements, and administrative impositions in 1997 will result in
collections in future years, just as some of the collections in 1997 are attributable to actions from
prior years.

Working together, we have brought to successful conclusion the investigation and prosecution of
some of the most far reaching and costly health care fraud schemes including:

. Independent Clinical Laboratories: During 1997, the Federal Government achieved
               significant successes in its three-year task force effort targeting unbundling schemes
               whereby the nation's three largest independent clinical       laboratories routinely biled
               Medicare for medically unnecessar tests, and for tests that the physician never ordered.
               The three laboratories agreed to pay a total of $642 milion to settle potential civil and or
               criminal      liability to the federal and state governments. The Federal Government also
               required each corporation to enter a corporate integrity agreement to help safeguard
               against future fraud in laboratory biling practices.

. Diagnosis Related Groups (DRG) 72 Hour Window Project: A series of audits conducted
               by HHS/OIG disclosed that many hospitals were improperly biling Medicare for
               outpatient services rendered within 72 hours prior to and during a hospital admission, in
               addition to biling for the set fee (the DRG) Medicare pays for each admission (which is
               supposed to include the outpatient services rendered within 72 hours prior to the
               admission). In response, HHS/OIG and DOJ launched a national initiative to recover
               these duplicate payments, and to compel hospitals to institute corrective measures to
               prevent such improper claims in the future. As of October 1, 1997, more than $46 million
               has beell returned to the Federal Government.

A more detailed description of                    the accomplishments of              the major federal participants in the
coordinated effort established under HI AA follows. While information in this report is presented
in the context ofa single agency, most ofthese accomplishments reflect the combined efforts of
HHS, DOJ and other partners in the anti-fraud efforts. Afer just one year of operation under the
program, the successes of the Departments of Justice and HHS and our partners in the
coordinated anti-fraud effort already amply confrm that the increased funds to battle health care
fraud and abuse were wisely invested.

                                                                             11
12
         FUNDING FOR DEPARTMENT OF HEALTH AND
                    HUMAN SERVICES

                                                   Office of Inspector General

HIAA mandates that the HFS/OIG receive a certain               money, within a stipulated range,
                                                                       sum of

for Medicare and Medicaid activities. During the first year of the Program, the Secretary and the
Attorney General jointly allotted to these efforts the maximum statutory amount authorized: $70
millon. This represents an estimated $27 millon increase in available funds for the HHS/OIG to
combat fraud in HHS-funded health care programs.

HHS/OIG was involved                   in more than 1,400successful prosecutions and/or settlements in 1997.
More than 2,700 individuals and entities were excluded from doing business with Medicare,
Medicaid and other federal and state health care programs as a result largely of criminal
convictions (1101), licensure revocations (588), or other profession~l misconduct (1030) -- a 93
percent increase from thê .1,400 exclusions in 1996. In addition to its role in bringing about the
judgments and  settlements described in the Executive Summary, HHS/OIG recommended and the
Department disallowed $84.5 millon in improperly paid health care funds in 1997. HHS/OIG
efforts also resulted in health care funds not expended (i.e. funds put to better use as a result of
implemented fUS/OIG recommendations and other initiatives) of approximately $6.1 billon for
1997.

These early successes are attributable, in part, to the additional staff and resources made available
underHIP AA. During 1997, HHS/OIG staff levels increased from a little over 900 to .1,143 by
the end of the year. In addition, HHS/OIG opened six new investigative offces and three new
audit offces. Six more investigative offces will be opened during 1998. The staff of the
HHS/OIGOffce ofEvaluatlon and Inspections has also increased, thereby strengthening the
offce's abilty to .conduct shoit term national evaluations that provide policymakers and managers
with analysis and.  recommendations for.improving the éffectiveness and effciency ofHHS
programs. The outcomes of these inspections can lead to increased cost savings, improved
quality of care or services, improved program effciency a,nd the identification of program
vulnerabilties. Overall,               new staff    has enabled the HHS/OIG to intensify and expand its activities
in the health care field arid to coordinate a more effective effort to curb Medicare and Medicaid
fraud and abuse.


The additional resoUrces and authorities granted by HIAA have supported numerous important
HHS/OIG projects. For example, HHS/OIG investigators and auditors have been instrumental
participants in the marked success of many coordinated national initiatives, some of which are




                                                                 13
referenced above. In addition, HHS/OIG investigations and audits have supported numerous
other significant çrininal convictions and civil settlements in a number of different arenas in the
health care industry that resulted in returns to the Trust Fund in 1997:

.          Home Health Agency Fraud: First American Home Health Care of Georgia, formerly
           ABC Home Health Services, entered an agreement in settlement of charges that they filed
           false cost reports to Mediçare; cost reports that inçluded ghost employees, personal
           expenses, and political contributions, under which the owners agreed to pay the Federal
           GQy~riitnt $255 millon. This represents the culmination of an investigation that was
          ongqing fo; seven years. .
.          Diirable Medical Êquipment - IncontinenceCare Kits: As part ofthelIS/OIG's
           continued pursuit offraud in the durable                            medical      equipment industry,thellS/OIG
           investigated one of            the largest bilers of              Medicare        for incontinence care products. The
           own~r Qrthis ~upp1y company was sentenced to. 10 years imprisol1entfor biling
           Mediëa,re fo.rfemale incontinence care kits provided to nursing home patients, when he
           actually provided only adult diapers. .

.          AdministratiQnOfthe Medicare Program: After a two-year investigation, a former
           Medicare carrier,:slueShield of Californa, agreed to pay $ 1 2 millon in settlement of its
                                                                           capabilities. The company
           civiLliability for having falsified its claims processing data and

           also pled guilty t()conspiracy, and obstruction of a federal audit, and was fined an
           additional $1.5 millon.

Audits

A~dit efforts.areincreasingly central                        to the detection offrau.d against and vulnerabilties                 in health

care l)ogranis. Foremost amongthese effortsis the auditofHCFA's financial statements.
Initüilly maiida,ted by the Chief Financial Offcers Act, and e)(pande.d by the Government
Managemtnt.Refol1 Actpf1994, tlieseallIiual fina~cial statement audits.      provide an objective
eyah1atipri ()f the. reliability           of   those statements and, importantly, include an evaluation of financial
mànagenierit,processes, systerns~nd internal cpntrols.. As                                     part ofthis.review, and for the.    first
time in tli,historyoftheMedic.areprograni, a COiiprehensive, statistically valid sample offee-fÇJr-
service ëlainis\Aas .taken.iodeternine the.correctness of                                   Medicare payments. The audit, jointly
funrled bYlIS/OIG andllCF A, .revealed estimated improper Medicare payments of
apprwcima.telY~f.3 billon, ör abollt ..14 percent of              total Medicare fee-for -service benefit payments
made during the year. Most of                     the improper payments were attributable to insuffcient or no
documentation, lack of medical necessity, incorrect coding, and unallowable services. The audit
didnot determirieYihatportipn qf these improper payments are attributable to fraud. HCFA is
alre~dy moving toçorrect these systemic weaknesses.

The HHS/OIG has also been redirecting some audit efforts away from just the traditional financial
and pedormance audits that characterized HHS/OIG's activities in the past. Instead, many   audit
    staff are being trained at the Federal Law Enforcement Training Center, and are then available to
                                                                               14
provide critical financial analysis and support to the Offce of Investigations and DOJ on large,
complex false claims cases. Audit assistance Was central to the success of many of                                                       the joint

initiatives this year, among them, Independent Clinical Laboratories, and the DRG 72 Hour
Payment Window Project.

Medicaid

Another key HHS/OIG initiative                       has been to workiriore closely with state auditors in overseeing
the Medicaid program. The HHS/OIG Offce of Audit Servicés                           devised  a Federal..State
Partnership Plan that ensures more                      effective use of scarce audit resòurces by both the federal and
state audit sectors. 'Partrierships have                     already                       state
                                                                              been established             with 19 state Auditors, 1 1


Medicaid agencies and 2  state internal audit groups. Extensive sharing of audit ideas, approaches
and objectives has taken place between federal and state auditors. Completed reports have
involved a financial impact of $ 1 40 millon affecting both federal and state governent funds.

Home           Health

The HHS/OIGalso continued its focus on fraud and                                         abuse in the home"health industry. The
Offce of Audit Services conducted an                          audit       of home health claims in 4' states, and found that 40
percent failed to meet Medicare                     reimbursement requirements. Mòst ofteri, tliese services were
found to be unreasonable or unnecessar, were provided to beneficiaries who were not
homebound, or were not supported by valid physician orders or adequate documentation. At the
same time, the Offce of Evaluation and Inspectiorts completed a study that revealed that
Medicare's certification process did not                         adequately            safeguard against             participation by
unscrupulous            providers. In response to these: reports, aternporary moratorium on new
                      or abusive

certification of new home health agencies was instituted, during which time program safeguards
could be improved.

Prevention

HI AA has also allowed the HHS/OIG to redouble its efforts in preventing health care fraud and
abuse. Through its new Industry Guidance Branch, the HHS/OIG, in consultation with the
Attorney General, issued regulations                        stipulating a process for issuing wrtten advisory opinions to
the. public on various legal issues arising under certain                     statutes enforced by HHS/OIG, including
the Anti-Kickback Statute and the Civil Monetary Penalties Law. In accordance with those                                                             rules,
a number of advisory opinion requests have been received and reviewed. The HHS/OIG also
solicited and published proposals for modificatiorisand additions to the so-called Safe Harbors,
regulatory provisions which establish conditions for business structures or practices deemed
nonabusive, and therefore, which wil notbe investigated or prosecuted under    the Anti-Kickback
Statute.

Working with DOJ, the HHS/OIG initiated a negotiated rulemaking specifically addressing anti-
kickback penalties in the context of risk sharing arrangements. In another effort to avert future


                                                                                 15
fraud, the lfS/OIGand DOJ have committed to including corporate integrty provisions in major
settlements. The HHS/OIG is                            currently stafng up to thoroughly monitor the compliance reports
submitted by settlingpartiès.

HHS/OIG continues to work with HCFA, the Administration on Aging (AoA) and various
advocacy groups to develop an outreach                            campaign to educate beneficiaries and others who work
directly with the          elderly to re~ognize Medicare/Medicaid fraud, waste, and abuse when they
encounter it, and           know hpW a,nd where to refer it. In this regard, the Offce               of Eva Iiiation and
InspectionRPperates anHHS/QIG Hotline, which serves as a point of
                                                                                                   contact for   complaints of

waste and           fraud in th.eMedicare program (and other HHSprograms). The HHS/OIG Hotline
received approxiinately 5.8~OOQ telephone calls, during the year, which resulted in more than 7,000
complairit~. Aie,stimiitedS3.milion in recoveries are associated with complaints resolved by
HCF A arid its contraçtors.

Another key aspect of prevention efforts is the HHS/OIG's responsibility for excluding offending
providers from future paricipation in federal health programs. "Project WEED" is designed to
improve the process whereby the Offce of Investigations identifies abusive providers and, when
appropriate, excludes tliem fr,om Medicare and stlite health programs (including Medicaid).
During tlie fistyea:r of the                    Program, the number of such exclusions nearly doubled, from 1,408 in
1 996~ tp2, 7 l .~,ln. 1 997 '. The majority of these ,exclusions werepased on convictions for program-
related crimes.

The HHS/QIG\Vorking\VthlICF Picievelops recommendations tOCQrrect systemic vulnerabilities
detected during reviews.A.nulJpef:oflqngstanding legislative recollendations were adopted in
the:aalancedlL.lici8et Act .of iwn l:dareOeing implerpep.ted by HGP A                                  These. include
recollendationsrelatedtQ HHS/OIGworkin areas such                                       as depreciation.losses on hospital' sales,
 and program controls for home                              health agen,cies and skilled nursing facilties, exterisionsto
Medicare Secondary Payor provisions, prescription drugs, ambulance payments and indirect
medical education costs.

                                            Health.,          Care ,Financing        AdministratioD

 The HealthCare Financing, Administrationreceived$S.3 .                                million from the Account in ,1997 for
 activitiesielatedtocòntrollngfraudandabuse;in the Medicare                                   program. HCFAC Program funds
 weré used for ..he following activities                          in FYl997:

 Survey           and Certifcation               Medicare           Coverage    Reviews . $1.8 milion

 In 1997, HCFA received $1.8 milion from the HCF ACProgram for Medicare coverage reviews.
 HCF A carries out Medicare coverage reviews        by contracting with state agencies to conduct
 specialized surveys that are an expansion of traditional quality of care surveys. Medicare coverage
 review funding improved the exchange of     information among     HCFA, state agencies, Fiscal
 Intermediaries              (FIs),and Regional Home Health Intermediaries                    (Rs). Medicare coverage


                                                                                16
reviews assist the FI and/or RHHI in identifying inaccurate biling,: potential                                      coverage problems,
and potential waste, fraud, and abuse. Accordingly, Medicare coverage                                           reviews provide FIs
and/or RHs with the information they need to assess overpayments                                              and implement collection
procedures.

The program supported the use ofprotocolswherebystate survey and certification agencies
provided information                  to cMedicarecontractorson the                    eligibilty     status ofbeneficiàries receiving
services from laboratories, hotnehealthagencies, and skilled                                        nursing facilites whose utilzation
and costs were extremelyhigh\. During 1997, 326                                  surveys were          made   in 19. states and
overpayments           in the amount of$87.6 millon were identified. HCFA isin the process                                     of
collecting these overpaýments.

HCFACllstomerInformation System (HCIS) ..$1.9 milion

HCIS is the automation architecture being used to supportthe development and distribution of
Medicare specific information to the Agency's legitimate customer base. HCIS is designed
speçifically to        counter fraud and abuse in the Medicare  program and       will   enable HHS/OIG and
DOJ personnelto'target aberrant providers, reduce investigative             time,      and improve actual
recoveries to the Medicare Trust Funds.

HCIS accomplishes this in two ways -- (1) through                                   the availability     of   summarized data that can be
used to.focus on           specific         areas of     interestand (2) via access to beneficiar claim level data. These
functions complement one another. For example, an auditor looking for patterns of                                  Medicare
fraud can use summarized data to focus an investigation to a specific area of interest. Since the
investigation       is focused at this point, the number ofbenefibiaryclaim detail                        records needed can be
kept to a     minimum. The smaller request set can later                           be used. to process a request for complete
detail data in the event the preliminary investigation warrants more comprehensive analysis. The
system currentlyhousessummarizeddatafor:home health agency, skilled                                               nursing facility, hospice,
inpatient, outpatient, and physician services.


Los Alamos National Laboratory (LANL) - $1.6 milion

In 1997, HCF A extended a contract with LAN to develop methodologies to identify fraud and
abuse in the Medicare program. Scientists from LAN have examned the Medicare program and
have developed algorithms and technques to identify "suspicious" providers and to identify
patterns of abuse. LAN is currently applying detection algorithms to historical claims data to
develop a simulation that ranks the I'suspiciousness" of a. claim prior to payment. LAN will
continue enhancement                 and examination of             their fraud. detection algorithms, and will test these
technques with additional provider types and in different demographic areas of                             the Nation.




                                                                            17
                                 Health Resources and Services Administration

The Act mandates   that the HHS/OIG and DOJ establish a national health care fraud and abuse
data collection program for the reporting and disclosure of certain final adverse actions (excluding
settlements in which no findings of liabilty have been made) taken against health care providers,
suppliers, and practitioners. The Health Resources and Servces Administration (HRSA) has been
authorized to design, implement and operate this program, currently named the Healthcare
Integrity and Protection Data Bank (HDB). In 1997, HRSA was allocated $2 millon for
development under the Program; operating costs will be funded by user fees.

The HIDB is being developed in stages as an all electronic system that wil collect, store and
disseminate reports on practitioners, providers and suppliers that have been found guilty of health
related adverse actions through an adjudicated process. The reports will be made available to
certain federal and state governental authorities, including law enforcement agencies, and health
plans. These same entities are mandated reporters to HIDB.

HRSAused its National                        Practitioner DataBank (NDB) as a baseline and model in the plannng
 and design of           the HIDB. .           More   than 6,000 contacts and discussions with offcials and
                                                                                                            and
 representatives of other federal agencies, the major health plans and professional societies

 licensing boards, and varous state organzations in both the health and law enforcement
 communities were               made for developing                        the   initial requirements for the HIDB. During this
                                       and    requirements                 development phase,    the concept of using the NPDB as a
 information gathering

 baseline and model               was validated~

 A milestone schedule has been developed for opening the HIDB with an initial operating
                                                                            to date includes:
 capabilty on March 10, 1998. Progress




  . implementing                       regulations and Notice of
                                                                                       Proposed Rule Making (NRM) developed and
                forwarded for release;
  . design specifications developed and approved;
  . specific design reviews conducted of key hardware and software;
  . physical facilty modified to accommodate the new equipment;
  . equipment ordered,               received and installed in the new facilty;
  .              existing baseline NPDBsoftware copied to the test machine; and
  . software development begun.

  In addition, data            acquisition activities have begun that
                                                                                                wil result in data to populate the HIDB.
  These activities include formal
                                                             discussions         with other federal agencies including:



      . DOJ to acquire all federal judgments and convictions;
      . HCF A to acquire Medicare and Medicaid adverse and exclusion actions; and
      . Departments of                       Defense and Veterans Afairs to acquire disciplinary and adverse actions.



                                                                                         18
HRSA has also entered into preliminary discussions with various health care related and health
professional organizations including those representing Nursing and Chiropractic Licensing
Boards, to.obtain information collected by them.


                                            Office of the General Counsel

The HHS Offce of    the General Counsel (OGC) worked in partnership with the DOJ and other
HHS components (HCF A and the HHS/OIG) to combat health care fraud and abuse. OGC was
allocated $ 1.8 millon in HCF AC funding for 1997. These funds were instrumental in recovering
misspent monies of the Medicare Trust Funds, increasing overpayment recovery litigation, and
implementing legislative and regulatory changes. This has resulted in a 65 percent increase in the
number of new Program Integrity Litigation items for OGC.

The increases inOGC's funding and workload were accompanied by numerous accomplishments:

. worked with U.S. Attorneys' offces in Michigan, recoveries in the Medic?-re Secondary
           Payer program rose dramatically in FY 1997, to almost $9 milion.

. assisted in recovering $8.5 millon from           a provider for an overpayment relating to a closed
            cost year and the discovery of improper, fraudulent cost accounting methods.

. reviewed notices sent to providers suspending payments based on suspected Medicare
            fraud, which has led to systemic changes to the notices decreasing their vulnerability to
            successful iegal challenges.

. pursued recovering approximately $ 1 .8 millon in overpayments to a bankpt Medicare-
            participating home health agency.

These are just a few examples of OGC's accomplishments under the HCF AC program for 1997.
It is expected that the activities of the OGC wil continue and expand as the program matures.

                                              Administration on Aging

The Administration on Aging (AoA), with its vast network of state and area agencies on aging
and community-based services, serves as a partner with the HHS/OIG and HCF A in the long-term
federal effort to fight and prevent fraud and abuse in the Medicare and Medicaid programs.

In 1997, the AoA was allocated $ 1. 1 millon under the Program. These funds were used to train
and educate both paid and volunteer staff in the aging network, especially those associated with
Older American Act programs and services, such as long-term care ombudsman, to recognize and
report potential practices and patterns of fraud and abuse in the Medicare and Medicaid programs.




                                                          19
Additionally, AoA and its network agencies engaged in outreach and educational activities to
inform and empower older persons, their families and their communities to recognize and report
fraudulent and abusive situations and to prevent or minimize victimization by such behavior.


HCF AC funding resulted in the following AoA accomplishments:

. awarded 15 cooperative agreements to state units on aging to support education, training
           and outreach efforts to help aging network staff and volunteers to recognize and report
           health care fraud and abuse;

. planned and convened in collaboration with HHS/OIG and HCF A a two-day national
           meeting in September, 1997 for an orientation to health care anti-fraud and abuse for 116
           representatives of state units on aging and other aging network agencies;

. tested targeted community outreach models in New York City, Los Angeles, suburban
           Chicago, IL, and Central Florida where several thousand older persons were trained to
           recognize   and report health care fraud and empowered to minimize becoming victims of
           such . practices;




. in collaboration with HHS/OIG and the Assistant Secretary for Plannng and Evaluation
           initiated plans to evaluate the effectiveness of aging network staff and agencies to
           recognize and report Medicare fraud and abuse;

. conducted with HHS/OIG and HCF A, 10 health care anti-fraud and abuse workshops for
            approximately 535 aging service professionals at 8 major national and regional
            conferences of aging network agencies; and

. contracted with the University of           Louisvile to design software enhancements to report
            and track fraud and abuse referrals from state long-term care ombudsmen.

The training and outreach activities have already resulted in significant referrals to the HHS/OIG
hotline and other investigative and enforcement agencies leading to varous sanctions,
recoupments and prosecutions.




                                                     20
                FUNDING FOR DEPARTMENT OF JUSTICE


                                                      United States Attorneys
Health care fraud involves many different types of schemes that defraud Medicare, Medicaid, the
Department of           Veterans Afairs, or other insurers or providers. The fraudulent activity may
include double biling schemes, kickbacks, billng for unnecessary or unperformed tests, or may be
related to the quality of the medical care provided. Working closely with the Department of
Justice Civil and Criminal Divisions, United States Attorneys' offces (USAOs) criminally and
civily prosecute health care professionals, providers, and other specialized business entities who
engage in health           care fraud.


USAOs have established close ties with numerous federal and state law enforcement agencies
who are involved in the prevention, evaluation, detection, and investigation of                        health care fraud.
In addition to HHS/OIG and HCF A, these agencies include the State Medicaid Fraud Control
Units (MFCUs); Inspectors General Offces of other Federal agencies; the Drug Enforcement
Administration; DOD, DCIS; and the TRICAR Support Offce in the Department of      Defense
(formerly CHAUS).
To assist in cQordination and communication .at local, state and nationallevels, each USAO has
appointed both a criminal and civil health care fraud coordinator. Additionally, a Health Care
Fraud Coordinator position has been established in the Executive Offce for the United States
Attorneys (EOUSA) to facilitate fraud enforcement efforts. Prior to the enactment of                           HI AA,
USAOs dedicated substantiál resources to combating health care                           fraud. HI AA allocations have
supplemented these efforts.

Highlights of         the first year of        the Program include:

Training:               The EOUSA's Offce of                     Legal Education (OLE) is tasked with the responsibility
                        for providing health care fraud training for USAO, and DOJ attorneys,
                        investigators, and auditors. During 1997, OLE conducted a number of
                        presentations and complete courses on health care fraud. Notably, OLE
                        sponsored a conference in Basic Health Care Fraud Prosecution Team Training in
                        July 1997. Many of   the attendees were newly hired USAO personneL. Due in
                        large part to overwhelming interest in basic team training, this program was
                        repeated for those unable to attend the first course. The second course was held in
                        September 1997. OLE plans to sponsor six health care fraud courses for
                        Department prosecutors and support personnel in 1998.




                                                                            21
                       Additionally, USAO attorneys, investigators and auditors participated in a number
                       of non-OLE sponsored, multi-agency health care fraud training courses over the
                       last year.

Recruitment of Additional Prosecutors and Investigative Personnel:

                       On January 6, 1997, the Attorney General anounced that 167 new positions for
                       health care fraud enforcement were authorized to be filled in USAOs. These
                       included: 60 criminal Assistant United States Attorneys (AUSAs); 30 civil AUSAs;
                       23 paralegals; 30 auditor/investigators; 23 support positions, and a full-time Health
                       Care Fraùd Coordinator in the Legal Programs section of
                                                                                  EO  USA.

Accomplishments - Criminal Prosecutions

The primary objective of criminal prosecution efforts is to ensure the integrity of our Nation's
health care programs and to punish and deter those who, through their fraudulent activities, abuse
the health care system and the taxpayers.


Each time a criminal case is referred to a USAO from the FBI, HHS/OIG, or other enforcement
agency, it is opened as a matter pending in the district. A case remains a matter until an
indictment or information is filed or the case is declined for prosecution. Since 1996, criminal
health care fraud matters have increased by approximately 13 percent. The number of defendants
the United States has been investigating and referrng for prosecution has also increased; since
 1996, the number of defendants involved in criminal health care fraud matters has increased by
approximately 15 percent.




                                        1997             1,517                 2,479

                                        1996             1,346                 2,151

                                        1995             1,247                 2,047

The increase in matters referred to USAOs has directly resulted in an increase in criminal health
 care fraud prosecutions filed. During 1997, criminal health care fraud prosecutions increased by
 approximately 15 percent over 1996. The number of
                                                                 defendants the USAOs have prosecuted has
 also dramatically increased, a 18 percent increase over 1996.




                                                          22
                         1997                  282                       531

                         1996                  246                       450

                         1995                  229                       381

Health care fraud convictions include both guilty pleas and guilty verdicts. The Deparment has
seen a tremendous increase in the number of convictions. During 1997, criminal health care fraud
convictions reached a record high, a 22 percent increase over 1996. The number of defendants
convicted increased 18 percent over 1996.




                         1997                  217                       363

                         1996                  177                       307

                         1995                  158                       255

Accomplishments ..Civil Cases

Civil health care fraud efforts constitute a major focus of Afrmative Civil Enforcement (ACE)
activities. The ACE Program is a powerfl legal tool used to help ensure that federal funds are
recovered, federal       laws are obeyed, and that violators provide compensation to the governent
for losses and damages they cause as a result of fraud, waste, and abuse. Civil health care fraud
prosecutions ordinarly involve the United States utilzing the False Claims Act to recover
damages and penalties against those who defraud the governent, as well as the common law of
fraud, payment by mistake, unjust enrchment and conversion. Additionally, in conjunction with a
.defendant commtting a criminal health care fraud offense, the United States may file a civil
proceeding using the Fraud Injunction Statute, to ensure assets traceable to such violation are
available to repay those victims the defendant has defrauded.




                                                     23
                                                 1997                               4,010

                                                 1996                               2,488

                                                 1995                               1,406


Each time a civil case is referred to a USAO it is opened as a matter pending in the district. Civil
health care fraud cases             and matters are referred directly from federal or state investigative
agencies. In addition, our  efforts to combat health care fraud are aided by private persons known
as "relators," who fie suits on behalf ofthe Federal Governent under the 1986 gi tam
amendments to the False Claims Act and may be entitled to share in the recoveries resulting from
these lawsuits.


A mater becomes a caseWJ:entheUnited States fies a civil complaint, or intervenes in a gi tam.
complaint, in United States uistrict Court. A large majority of civil health care fraud cases and
matters are settled without a coìnplaint ever being filed. 1997 civil health care fraud matters
increased 61 percent over 1996.




                                                  1997                                89

                                                  1996                                 90

                                                  1995                                 60



                                                                 Civil Division

Civil Division attorneys and AUSAs throughout the country, working closely with the FBI, the
HHS/OIG, the DOD/OIG, and other federal                        law enforcement agencies, as well as MFCUs,
vigorously pursue civil remedies in health care fraud matters, and work on other projects that
implicate the Civil Division's interests in the prosecution of              health care fraud. A record setting
number of new health care fraud matters were initiated by the Civil Division in 1997 -- 243 new
matters is double the actions initiated in 1996, suggesting heightened enforcement emphasis for
 years to come.

 A noteworthy success for the Deparment was the $3 19 millon independent clinical
                                                                                    laboratory
 settlement with Smithkine Beecham Clinical Labs, which settled a range of allegations including

                                                                             24
kickbacks, biling for tests not pedormed, and fabrication of diagnosis codes. Other matters
involving clinical laboratories biling for unnecessary blood tests produced sizeable civil
settlements -- $ 1 73 millon from Laboratory Corporation of America and $81 millon from Damon
Labs.

Also significant are the Department's settlements with Baptist Medical Center ($17 milion),
Apria Healthcare Group, Inc. ($1.65 millon), and OrNda Healthcorp ($12.6 millon) for
submitting claims to Medicare for goods and servces provided pursuant to prohibited kickback
arrangements.

Resources play an important role in promoting the expansion of health care fraud enforcement
efforts. In 1997, the Civil Division received $9,656,000 in funds from the Account for personnel
and Automated Litigation Support (ALS). Authorization for an additional
                                                                                                33 positions was
provided, including attorneys, analysts, auditors, paralegals, a training specialist, and a litigation
support specialist.

The ability to effectively coordinate among the many organizations and locations that playa role
in identifyng and prosecuting health care fraud is crucial to successful enforcement efforts.
Accordingly, an attorney was selected in 1997 to serve as the Civil Division's health care fraud
                                                                                   health care
coordinator. This attorney will work on improving the Civil Division's prosecution of

fraud, and coordinating those efforts with other DOJ components, other law enforcement
agencies, and the private sector.

Major progress was made in establishing ALSservices for large-scale health care fraud matters in
1997. Many health care fraud matters involve a profusion of small fraudulent actions repeated
systematically on a large number of patients at multiple locations throughout the country. ALS
has been used successfully to create databases to identify patterns of activity among suspected
offenders and calculate potential fraud and pinpoint those responsible for the fraud.

In 1997, funding from the Account also permtted the Civil Division to hire the services of
statisticians, accountants and medical consultants to support health care fraud cases and
investigations. Because health care fraud perpetrators are skilled at covering their tracks under
mountains of claim forms and ledger sheets, accountants knowledgeable in the financial practices
of large medical entities are critical to detecting the biling schemes of unscrupulous hospitals and
other providers. Also important are ALS-provided statisticians who develop sampling plans and
analyses for determining the pervasiveness and monetary value of                        the fraud. Medical consultants
review patient files to determne if                     the services provided were medically necessary.

                                               Federal Bureau of Investigation

The FBI received $3.6 millon from the HCFAC for equipment, in addition to the $47 millon
provided by HIAA. (A description of   the $47 millon is included in the Appendix). The
equipment purchased with these funds was for enhancement of computer/techncal and

                                                                             25
surveilance inventories of multiple FBI field offces, and is dedicated for use in health care fraud
investigations. The majority of the purchases were for laptop and desktop computers and
enhanced computer software to assist in the complex and document intensive health care fraud
matters. In addition, surveilance cameras and sophisticated consensual recording equipment was
purchased. Further, several new Health Care Fraud Squads and multi-agency task forces were
outfitted with standard investigative equipment.

                                                            Criminal Division

The Fraud Section of   the Criminal Division fashions and implements white collar crime policy and
provides. support to the Criminal Division, the Department and other federal agencies on white
collar crime issues. The Fraud Section supports the USAO~ with legal and investigative guidance
and, in certain instances, provides trial attorneys to prosecute criminal fraud
                                                                                                         cases. For several

years, a major focus ofFraud Section personnel and resources has been to investigate and
prosecute fraud involving federal health care programs.

The Fraud Section has provided guidance to FBI agents, AUSAs and Criminal Division attorneys
on criminal, civil and administrative tools to combat health care fraud through:

. updates on criminal, civil, administrative and regulatory efforts to combat health care
            fraud;

 . memoranda summarizing the provisions ofHIAA distributed at the Health Care Fraud
      Working Group.meetings and other training conferences, and updating the April 1995
      Health Care Fraud manual to reflect the significant changes brought about by HI AA
      distributed in the July and September 1997 training conferences on health care fraud;

 . updates on significant appellate decisions concerning health care
                                                                                                     fraud prosecutions;

 . development of guidance on authorized investigative demands. This provision empowers
             the. Attorney General to issue investigative demands to obtain records for criminal
             investigations relating to federal criminal health care fraud offenses. These records are not
             subject to the constraints.              applicable to grand         jury matters, and thus enhance the ability of
             USAOs to conduct parallel criminal and civil investigations.

                                                  Justice Management Division

 In order for DOJ to fulfill its obligations under the Program, additional resources were placed
 within the Justice Management Division, Debt Collection Management Staff The duties of this
 offce include: budget formulation, oversight and coordinating with the Offce of
                                                                                    Management and
 Budget and HCF A; development and data collection for the internal program evaluation;
 coordinating with HHS/OIG and the Department ofthe Treasury on the tracking of collections;
 coordinating with the General Accounting Offce on required audits; and preparation and
 coordination of the annual report.

                                                                             26
                         PARTNERS IN
                          FUNDING FOR OTHER



    HEALTH CARE ENFORCEMENT AND OVERSIGHT

Of the funds made available for 1997, up to $3.5 millon was set aside for enforcement activities
by federal, state and local agencies (other than HHS and DOl) that are currently involved in
health care fraud and abuse detection and prevention activities. On March 26, 1997, HHS and
DOJ jointly published a Notice of Availabilty of
                                                  Funds inviting qualifying federal, state and local
agencies to submit proposals to receive a portion of
                                                                              this money   to fund projects or activities that
promote the objectives ofthe Program. A total
                                                        of 28 proposals were received and rated by a
panel from HHS and DOl The panel recommended funding for 11 proposals (eight state
governental units, the District of Columbia, and two federal agencies) totaling $1.55 millon.
The Secretary          and the Attorney General adopted the recommendations of the panel, and funds
were issued in July 1997. Following is a brief
                                                     description of each of the funded proposals:

State of Alabama~ Offce of                      the Attorney General- $232,700 - Funding was approved to purchase
computer and transportation equipment, and provide training for investigators and auditors of the
MFCU. Funds wil àlso support a review of
                                                                   hospital reimbursement under Medicaid.

State of     Californa, Offce ofthe Attorney General. Bureau ofMedi-Cal Fraud and Abuse
State of     New York. Offce ofthe Attorney General. Medicaid Fraud Control Unit - $300,000-
Funding was provided to develop a joint automated system for managing the tasks required to
investigate and prosecute cases of     health care fraud. Once developed, the system wil be shared
with other MFCUs.

 State of                          Health Care Policy and Financing - $213,334 - Two projects
                Colorado, Department of

received funding: 1) a study to detect fraud and abuse by clients and/or providers who use
multiple programs; and 2) a risk-adjusted methodology for setting Medicaid Health Maintenance
Organization capitation rates.

Department of               Defense, Inspector General- $195,612 - Funding was approved to purchase, on
 behalf of       DC      IS, computer hardware and software to establish 12 on-line sites for direct access,
 downoading and analysis of data relating to the CHAUS program.

 District of          Columbia, Department of           Human Services, Department of             Health, and the Medical
 Assistance Administration - $83,776 - Funding was provided to purchase computer software; to
 provide services and training for fraud and abuse detection; and to provide electronic
 communication between the Government Fraud Investigative Unit and the Medical Assistance
 Administration.




                                                                         27
            Nebraska. Department of
                                          Insurance   - $100,000 - Funding was provided to acquire a
State of

computerized data base to assist in health care enforcement and oversight efforts, as well as the
equipment necessary to operate it and related training in its use.


State of North Carolina. Department ofInsurance - $28,932 - Funding was granted to provide
professional and techncal consultation, such as physicians and statistical analysts, for investigative
agencies and prosecutorial authorities, in pursuit of health care fraud enforcement.

 Commonwealth of Pennsylvania, Department of Public Welfare - $ 1 12,315 - Funding was
 provided to acquire new software, hardware and training to enable the agency to produce more
 effcient and useful provider profiles to expedite case preparation and evaluation .

 State of     Tennessee. Department of
                                              Commerce and Insurance - $121,700 - Funding was granted to
 coordinate health care activities among law enforcement agencies, and for public and industry
 outreach.

  State of Wisconsin. Department of Justice - $58,988 - Funding was granted for one full-time
  investigator, training materials and computer equipment for a beneficiary outreach program to
  identify health care fraud scams over the Internet.

  Department of          the Treasury. Internal Revenue Service. Criminal Investigative Division - $107,000
  _ Funding was provided to conduct health care fraud training seminars, including training in
  managed care.




                                                            28
                                                              APPENDIX

                                       Federal Bureau of Investigation
                                                     Mandatory Funding
           "There are hereby appropriated from the general fund of the
           Uni ted States Treasury and hereby appropria ted to the
           Account for transfer to the Federal Bureau of Investigation
            to carry out the purposes described in subparagraph (C) r to
           be available wi thout further appropriation-- (I) for fiscal
           year 1997r $47rOOOrOOO".

Successful health care fraud enforcement cannot be achieved by anyone agency alone.
Investigations must be a cooperative effort if they are to be successful in combating the increasing
problem of health care fraud. The FBI is involved in this cooperative effort. The FBI works
many health care fraud cases on a joint basis with other federal agencies, including the HHS/OIG.
These two federal agencies collaborate through attendance at health care fraud working groups,
attend each others' training conferences, and have a liaison program between the two
organizations. The FBI and the HHS/OIG share a common commtment to ending fragmented
health care fraud enforcement.

In addition to providing new statutory tools to combat health care fraud, HI AA specified
mandatory funding to the FBI for health care fraud enforcement. The law provided the FBI with
$47 millon in 1997 for its health care fraud efforts. The FBI used this funding, in large part, to
fund an additional 46 agents and 3 1 support positions for health care fraud and to create several
new dedicated Health Care Fraud squads. This increase in personnel resources increased the
number of  FBI agents addressing health care fraud in the fourth quarter of 1997 to the equivalent
of370 agents as compared to 112 in 1992. Funding is slated to increase incrementally until         2003,
when it wil reach $114 millon and remain at that level each year thereafter. With this additional
funding, the FBI wil to continue to increase the number of agents commtted to health care fraud
investigati ons.

As the FBI has increased the number of agents assigned to health care fraud investigations, the
caseload has increased dramatically from 591 cases in 1992, to 2,582 cases through 1997. The
FBI caseload is divided between those health plans receiving government funds and those that are
privately funded. Criminal health care fraud convictions resulting from FBI investigations have
risen from 116 in 1992, to 485 in 1997-. As the complexity and long-term nature of           health care




            -The FBI includes in its statistics convictions obtained through State prosecutions that
resulted from an FBI investigation.

                                                                            29
fraud investigations increase, the FBI anticipates that the number of investigations and convictions
wil begin to level off

A considerable portion of the increased funding was utilized to support major health care fraud
investigations. In addition, operational support has been provided for FBI national initiatives
focusing on pharmaceutical diversion, chiropracticfraud, and medical clinic fraud. Further, the
Health Care Fraud Unit, FBI Headquarters, supported individual Divisions' Health Care Fraud
Squads with equipment and supplies to assist in numerous individual investigations.

The funding made available through HI AA also made possible four Regional Training
Conferences for FBI agents assigned to health care fraud investigations. These one-week training
sessions sponsored.by HCFA provided in-depth training on the Medicare Program to almost 300
agents. Other training sessions, including a session for the FBI's Financial Analysts and an FBI,
DCIS, HHS/OIG Managers' Conference, were also made possible by HI AA. Further, funding
from HI AA was utilzed in Pharmacy Diversion Training and Cost Report Training to more than
100 FBI agents.




                                                     30
                                                       GLOSSARY

The Account - The Health Care Fraud and Abuse Control Account

ACE - Afrmative Civil Enforcement

ALS - Automated Litigation Support

AoA - Administration on Aging

AUSA - Assistant United States Attorney

CHAUS - Civilan Health and Medical Program of                        the Uniformed Services

DCIS - The Department of                   Defense, Defense Criminal Investigative Service

DOD - The Department of                    Defense

DOJ - The Department of Justice

DOL - The Department of                   Labor

DRG - Diagnosis Related Group

EOUSA - Executive Offce for the United States Attorneys

FBI - Federal Bureau of                Investigation

FI - Fiscal Intermediary

GAO - General Accounting Offce

HCF A - Health Care Financing Administration

HCIS - HCF A Customer Information System

HHS - The Department of                    Health and Human Servces

II - Hospital Insurance Trust Fund


HI AA or the Act - The Health Insurance Portability and Accountabilty Act of 1996,
             . P.L. 104-191

                                                               31
HIDB - Healthcare Integrity and Protection Data Bank

HRSA - Health Resources and Servces Administration

LAN - Los Alamos National Laboratory

MFCU - State Medicaid Fraud Control Unit

NPDB - National Practitioner Data Bank

NPRM - Notice of            Proposed Rule Making

OGC - The Department of Health and Human Services, Offce of the General Counsel

OIG - The Department of            Health and Human Services, Offce ofInspector General

OLE - Offce of            Legal Education, located within the Executive Offce for the United States
           Attorneys

OPM - Offce of            Personnel Management

 ORT - Operation Restore Trust

 The Program - The Health Care Fraud and Abuse Control Program

 RH - Regional Home Health Intermediary

 USAO - United States Attorney's Offce

 U.S.C. - United States Code

 V A - The Department of Veteran Afairs




                                                          32
